OFFICE OF INSPECTOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


April 30, 2009

I hereby submit this Semiannual Report for the period October 1,2008 through
March 31, 2009. The report summarizes the activities and accomplishments of the
Office of Inspector General and is submitted in accordance with the Inspector General
Act of 1978, as amended.

The OIG has had a very active six months and seen significant change in its
operations. Implementing the changes from the IG Act Amendments of2008
included: changing the OIG website to increase access and provide for contractor
self-reporting; entering into an agreement with Treasury Inspector General for Tax
Administration for independent legal services; and preparing and submitting an
independent budget for the OIG, including shared costs for the Council for Inspectors
General for Integrity and Efficiency. Adjustments to IG pay and rank have not been
implemented but are under discussion with the Office of the Chairman.

During the course of an OIG investigation into allegations against a contractor,
procurement files were removed from OIG possession by a Commission employee.
This incident is reported on page 15 of this report, as required by Section 5(a)5 of the
IG Act, as unreasonable refusal of information or assistance. The OIG continues to
work with the Office of the Chairman and the General Counsel to establish the
authority of the Office of Inspector General in accessing and securing documents in
the course of an audit or investigation.

The Office of Inspector General will continue to work constructively with the
Commission to further our common goal of assuring the effectiveness, efficiency and
integrity of Commission programs and operations.




~
               /4y--
J    ith C. Gwynn
    spector General
                                                           ig
                                         April 2009 Semiannual Report




                                      TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL…………………………………….....……………....1

PROVISIONS OF THE IG REFORM ACT OF 2008….…………………….………..…..…2

COMMISSION'S TOP MANAGEMENT CHALLENGES………………………………….4

COMMISSION PROFILE…………………………………………………………….………7

 AUDIT ACTITVITY.............................................................................................................8
  Reports Issued During this Period .......................................................................................8
  On-Going Audits..................................................................................................................9
  Audit Follow–Up ……………………………………………………………………......10

INSPECTION and EVALUATION ACTIVITY….......... ………….………..................…..11

INVESTIGATION ACTIVITY……………………………………………………….……..11
  Summary of Investigative Activity

UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE…………………12

OTHER ACTIVITIES……………………………………………………………………... ..13


REPORTING REQUIREMENTS INDEX………………………………………………… ..15
Table 1: AUDIT REPORTS WITH QUESTIONED COSTS…………………………….. ..17
Table 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO
BETTER USE……………………………………………………………………………… ..18

GLOSSARY……………………………………………………………………………….. ..19




                                                                i
                                           ig
                              April 2009 Semiannual Report




               THE OFFICE OF INSPECTOR GENERAL
The Commission established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act (IG Act). The OIG is headed by an Inspector
General (IG), who reports directly to the Chairman and Congress. As set forth in the IG Act,
as amended, the IG has the authority and responsibility to conduct objective and independent
audits, reviews and investigations of the agency’s programs and operations. Specifically, the
IG is responsible for promoting economy, efficiency, and effectiveness within the
Commission; preventing and detecting fraud, waste, abuse, and mismanagement in the
Commission’s programs and operations; providing comments and recommendations on
proposed legislation, regulations, and procedures affecting the Commission; and keeping the
Chairman and the Congress fully and currently informed of problems in agency programs
and operations.

The OIG organization consists of three staff positions: the Inspector General, appointed on a
six month term expiring July 7, 2009; an auditor (vacant); and an administrative assistant. In
addition, Treasury Inspector General for Tax Administration has agreed to provide legal
services and advice to OIG on an as-needed basis through a Memorandum of Understanding.


                   Office of Inspector General: Organization

                                  Inspector General




                 Auditor                              Administrative
                (Vacant)                                Assistant




                                              1
                                            ig
                              April 2009 Semiannual Report




Provisions of the IG Reform Act of 2008
  On October 14, 2008, the IG Reform Act of 2008 was signed into law (P.L. 11l-409). With the
  exception of amendments over the years to add new Inspectors General, this legislation was the
  first major action on IG reform since the passage of the 1988 amendments. The goal of the IG
  Reform Act of 2008 was to further enhance IG independence, create the CIGIE, and improve
  operations. Provided below are the Act’s major provisions:

IG INDEPENDENCE
 Appointment and Removal of IGs: IGs are to be appointed without regard to political
 affiliation, and solely on the basis of integrity and demonstrated ability in accounting,
 auditing, financial analysis, law, management analysis, public administration, or
 investigations. Before an IG can be removed or transferred, an agency head must provide
 the Congress with 30-days advance written notice, which would include the reasons for
 removal or transfer.
 IG Pay: Salary adjustments were made for IGs who are presidentially appointed and
 Senate confirmed, and IGs who are appointed by their agency head. IGs are prohibited
 from receiving cash awards or cash bonuses.
 Separate Counsel for IGs: Each IG will obtain legal advice from a counsel either
 reporting directly to the IG or another IG.
 Direct Budget Submission: IGs will send to the heads of their respective agencies their
 budget request, which will specify the amount requested for IG training and identify
 resources necessary to support the CIGIE. Further, the President’s budget will include any
 comments from an IG who concludes that the budget submitted by the President would
 substantially inhibit the IG from performing the duties of the office.
 OIGs Established as Discrete Agencies: OIGs are defined as separate agencies and the
 IGs will have the functions, powers, and duties of an agency head for voluntary
 separation/buyouts, early outs, reemploying annuitants, waiving mandatory separation for
 law enforcement officers, and all provisions relating to SES.
COUNCIL ON INTEGRITY AND EFFICIENCY
 Council of the Inspectors General on Integrity and Efficiency: The Act, by statute,
 combines the former PCIE and ECIE into one council, and includes legislative IGs and
 other officials. The Act established the Council as “an independent entity” in the executive
 branch and provided it with the ability to financially support its activities. An Integrity



                                               2
                                          ig
                             April 2009 Semiannual Report




 Committee, which would receive, review, and refer for investigation allegations of
 wrongdoing that are made against IGs or senior staff, was also established.
OPERATIONAL IMPROVEMENTS
 Subpoena Power: The Act clarifies subpoena power as extending to electronically stored
 information and "any tangible thing."
 OIG Web site: Reports must be posted on the OIG Web site not later than 3 days after the
 report is made publicly available. Any posted report must include a summary of OIG
 findings and be searchable and downloadable. Further, a direct link for the OIG’s hotline
 must be on the OIG homepage.
 Statistics for Evaluations/Inspections: Statistical results from evaluation and inspection
 reports are to be included in OIG semiannual reports in connection with audit report
 statistics.
 Statistics for Evaluations/Inspections: Statistical results from evaluation and inspection
 reports are to be included in OIG semiannual reports in connection with audit report
 statistics.
 Extending Authorities to Agency Appointed IGs: Provisions under the Program Fraud
 Civil Remedies Act and the law enforcement authority under the IG Act, as amended, were
 extended to include agency appointed IG’s.




                                             3
                                            ig
                              April 2009 Semiannual Report




     COMMISSION’S TOP MANAGEMENT CHALLENGES
The Office of Inspector General is required by statute to annually report the top management
challenges facing the U.S. International Trade Commission. In addition, OIG regularly
discusses the Commission’s progress in addressing these challenges in the Semi-annual
Report to Congress. This assessment is based on information from OIG audit and inspection
work, a general knowledge of the Commission’s programs and activities, and input from
management on what challenges the agency is facing and the efforts the agency has taken to
address the challenges.

Management Challenge: Information Technology Security

In Fiscal Year (FY) 2008, the Commission made noticeable progress in strengthening
information security practices. Based on the work performed for the FY 2008 FISMA audit,
and except for the discrepancies noted as part of the audit, OIG determined that the
Commission’s information security program, consisting of plans, policies, procedures, and
security controls, is in place and is generally consistent with the FISMA requirements.

However, information security continues to be a challenge government wide. The FY 2008
FISMA audit results identified four areas in which the Commission should implement
corrective actions to help further ensure that its information security risk management
program and practices comply with applicable NIST standards and guidelines and FISMA
requirements. OIG made 14 new recommendations to improve the Commission’s
information security program. In addition, there still remain four open recommendations
from prior year reviews. Together, the recommendations are designed to improve the
effectiveness of Commission’s information security control program taken as a whole.
Timely implementation of the all corrective actions is essential to reducing risk to
Commission systems and information.

The Commission’s Privacy Act Program, managed by the Chief Information Officer, is
intended to ensure that the Agency fulfills the Privacy Act of 1974 requirements enacted to
balance a person’s right to privacy with the Federal Governments’ need for information to
carry out it’s responsibilities. The protection of Personally Identifiable Information is a
priority to the Commission, but is an area of vulnerability as with all government agencies.

Securing system from cyber threats is clearly the most difficult piece of the challenge
because these threats represent a moving target: they increase in number and

                                              4
                                           ig
                              April 2009 Semiannual Report




sophistication almost daily. As the Commission incorporates wireless and other technologies
to support operations and workplace flexibilities, they invite new risks that must be
anticipated and mitigated.

Finally, the Commission recently brought on–line the latest version of the Electronic
Documents Imaging System. Introduction of this mission critical system holds inherently
higher risk, as with any new system. OIG encourages the Commission to closely monitor
and continue to test this system.

Management Challenge: Financial Management

During this reporting period, the OIG audited the Commission’s 2008 and 2007 financial
statements. Based on the findings, the OIG issued an unqualified opinion on the statements
along with recommendations to strengthen internal controls over procurement, property and
cash.

However, the Commission still faces the challenge of integrating and implementing a new
financial system, Oracle Federal Financials. This major application upgrade, while providing
a more responsive and reliable financial system, has required re-training of accounting,
procurement, and budget staff as well as cost center managers. The Commission is faced
with the challenge of developing financial policies and procedures from ground zero, and
enforcing those procedures on a consistent basis to ensure continued high marks on the
reliability of the financial statements and position. In addition, the anticipated integration
between the procurement and the financial systems did not occur as planned. The
Commission is continuing to work with the National Business Center in developing
procurement system requirements.

Procurement and Contract Management

Procurement and contracts historically have been areas subject to fraud and waste throughout
the government, and effectively managing them is a continuing challenge. With significant
contracting activities in services and mission critical purchases in information technology,
vigilant oversight mechanisms become all the more important. Poor oversight, lax controls,
and fraudulent billing are just a few examples of the Commission’s vulnerability to
procurement fraud. The lack of an integrated financial – procurement system further
complicates efforts to track and reconcile procurement activities. OMB continues to impose
additional controls over procurement processes and the Commission will be challenged to
meet these standards in a timely fashion.


                                              5
                                           ig
                              April 2009 Semiannual Report




Management Challenge: Strategic Management of Human Capital

The Commission’s ability to successfully execute activities in support of its mission depends
on a highly skilled and experienced workforce. Currently the Commission has a vacancy rate
of at least 12 percent. Workload has been steadily increasing in the areas of intellectual
property-based import investigation and import injury investigations, putting further strain on
Commission staff. In order to counter the staff shortage, the Commission offers many
recruitment and retention programs such as: re-location expenses; retention bonuses;
reimbursement of student loans; professional development and training; telecommuting; and
commuter subsidies.

The Commission has a Strategic Human Capital Management Plan that is an essential
component for strategic planning. In FY 2009, the Commission is continuing to manage and
refine a new performance management system, which it considers to be the first step in
implementing a pay for performance system.




                                              6
                                            ig
                              April 2009 Semiannual Report




                           COMMISSION PROFILE
                                    http://www.usitc.gov

The Commission is an independent, quasi–judicial federal agency with broad investigative
responsibilities on matters of trade. Its mission is to: administer U.S. trade remedy laws
within its mandate in a fair and objective manner; provide the President, the U.S. Trade
Representative (USTR) and the Congress with independent, quality analysis, information,
and support on matters of tariffs and international trade and competitiveness; and maintain
the Harmonized Tariff Schedule of the U.S. In so doing, the Commission serves the public
by implementing U.S. law and contributing to the development of sound and informed U.S.
trade policy. Major Commission activities include:

       •   Import Injury Investigations
       •   Intellectual Property–Based Investigations
       •   Industry and Economic Analysis
       •   Tariff and Trade Information Services
       •   Trade Policy Support


The six Commissioners are appointed by the President and confirmed by the Senate. They
each serve one nine-year term, unless appointed to fill an unexpired term. No more than three
Commissioners may be of the same political party. The Chairman and Vice Chairman are
designated by the President and serve a 2–year statutory term. The Chairman is responsible,
within statutory limits, for the administrative functions of the Commission.

The current Chairman is Shara L. Aranoff and the Vice Chairman is Daniel R. Pearson. The
other Commissioners are Deanna Tanner Okun, Charlotte R. Lane, Irving A. Williamson,
and Dean A. Pinkert.




                                              7
                                          ig
                             April 2009 Semiannual Report




                                AUDIT ACTIVITY

Reports Issued October 1, 2008 to March 31, 2009

The OIG issued two audit reports during this period:

Independent Auditor’s Report of the U.S. International Trade Commission’s Financial
Statements for Fiscal Years 2008 and 2007 and the Commission's Management
Challenges OIG-01-09 (November 14, 2008)

The Chief Financial Officers Act of 1990 (Public Law 101-576, commonly referred to as the
“CFO Act”), as amended requires the Office of Inspector General, or an independent external
auditor as determined by the Inspector General, to audit the agency financial statements.
Under a contract monitored by the OIG, Brown and Company LLP, an independent certified
public accounting firm (IPA), performed the audit of the USITC Fiscal Year 2008 financial
statements. Based on the findings, the OIG issued an unqualified opinion on the statements.

The OIG is responsible for oversight of the financial statement audit. This includes: 1)
reviewing the auditors approach and planning for the audit; 2) evaluating the qualifications
and independence of the auditors; 3) monitoring the work of the auditors; 4) examining
audit documents and reports to ensure compliance with Government Auditing Standards and
OMB Bulletin No. 08-24 Audit Requirements for Federal Financial Statements: and 5) other
procedures the OIG deems necessary to oversee the contract and audit.

The IPA found no internal control deficiencies and no reportable noncompliance with laws
and regulations. As part of the audit, the OIG reported on the top management challenges
facing the Commission, as well as recent OIG activities relating to each challenge.




                                             8
                                            ig
                               April 2009 Semiannual Report




Management Letter for the Fiscal Year 2008 Audit of the U.S. International Trade
Commission’s Financial Statements (March 25, 2009)

In connection with the independent audit of the Commission’s fiscal years 2008 and 2007
financial statements (see above audit description), the IPA developed a management letter
that identified issues not required to be included in the financial statement audit report. To
improve financial management, the OIG report addresses several weaknesses:

   •   For the Oracle Federal Financials system, develop written procedures for payroll,
       year end accounts payable estimation, depreciation calculations, and reconciling all
       aspects of Fund Balance with Treasury;
   •   Document procedures for processing personnel actions, and provide staff back up for
       this function;
   •   Establish review procedures for calculating imputed financing;
   •   Strengthen internal controls to avoid unauthorized commitments of funds

The report makes five recommendations that will assist the Commission in correcting these
deficiencies. All recommendations identify certain weaknesses in the Commission’s internal
control systems. Most notable was the error in imputed costs of over three million dollars,
which was identified and corrected by the audit before the statements were finalized. An
uncorrected entry of that amount would have been a material misstatement and resulted in a
‘qualified’ opinion of the FY 2008 financial statements. OIG will conduct follow up audit
work to confirm the effective application of those corrective actions plans.

On-Going Audits
During this reporting period, the OIG is in the process of conducting the following audit:

Federal Information Security Management Act Fiscal Year 2009 Performance Audit

This annual review is being conducted by KPMG LLP under a performance based contract
with OIG. The entrance conference was conducted in March, at which time management, the
OIG, and KPMG discussed the audit scope and ways to ensure an efficient and effective
audit process for FY 2009. A timeline was established for the audit, along with requests to
management for necessary documentation and information concerning the Commission’s
information systems. KPMG and OIG will develop and provide notice of findings and
recommendations (NFR) to management as issues are identified and developed. The NFR
informs management of potential audit findings and allow management the opportunity to
respond to the issues before the final audit report is issued.

                                               9
                                            ig
                               April 2009 Semiannual Report




OIG Audit Follow–Up Activity

Actions on OIG recommendations remain incomplete from three audits reported in previous
semiannual reports.

Federal Information Security Management Act Fiscal Year 2008 Performance Audit,
OIG -02-08 (September 30, 2008)

OIG issued 14 new recommendations designed to the Commission’ information security
program. The Commission agreed with all the recommendations and has provided corrective
action plans for each item. OIG continues to monitor and evaluate the Commission’s
progress on correcting these weaknesses.

Management Letter for the Fiscal Year 2007 Audit of the U.S. International Trade
Commission's Financial Statements, OIG-AR-0l-08 (January 29, 2008)

The audit addressed the non-materials findings that were identified in the FY 2007 financial
statement audit. One recommendation remains open. The Commission did not have policies
and procedures for several areas essential for effective internal controls and
accurate financial reporting. The recommendations addressed procedures for payroll,
yearend accounts payable, estimation and deprecation calculations, reconciling all aspects of
Fund Balance with Treasury, and documented procedures for processing personnel actions.

Evaluation of the U.S. International Trade Commission’s Fiscal Year 2005 Information
Security Program and Practices, OIG-AR-04-05 (September 27, 2005)

The OIG conducted an audit to determine whether the Commission implemented corrective
actions in regards to technical security issues identified in prior reviews. The audit resulted
in 23 recommendations, all of which were agreed to by management. As of March 2009,
four recommendations remain open. Due to the sensitive content of this audit, report
distribution was limited.




                                               10
                                          ig
                             April 2009 Semiannual Report




             INSPECTION and EVALUATION ACTIVITY
No inspections or evaluations were performed during this reporting period.

                                INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.

                         Summary of Investigative Activity

During this reporting period one case was opened and is currently under investigation. A
summary of investigative activity is presented below.


 Case Workload                   Referrals                   Investigative Results
                                 Processed


                            Received from
 Open (10/01/08)     0                             3       Referrals for Prosecution       0
                            Hotline
                            Referred to OIG
                                                           Referrals Declined for
 Initiated           1      Audit & Inspection     2                                       0
                                                           Prosecution
                            Division
                            Referred to
 Closed              0                             0       Administrative Action           0
                            Commission
                            Referred to other
 Open (03/31/09)     1                             1
                            Federal Agencies
                            Evaluated but No
                            Investigation          2
                            Initiated



                                             11
                                           ig
                              April 2009 Semiannual Report




Unreasonable Refusal of Information or Assistance
Per the IG Act of 1978 (as amended) Section 5(a) 5, the semiannual report is to contain a
report on any activities that fall under Section 6(b) 2 as follows:
       (b) (1) Upon request of an Inspector General for information or assistance under
       subsection (a) (3), the head of any Federal agency involved shall, insofar as is
       practicable and not in contravention of any existing statutory restriction or regulation
       of the Federal agency from which the information is requested, furnish to such
       Inspector General, or to an authorized designee, such information or assistance.
       (2) Whenever information or assistance requested under subsection (a)(1) or (a)(3) is,
       in the judgment of an Inspector General, unreasonably refused or not provided, the
       Inspector General shall report the circumstances to the head of the establishment
       involved without delay.
On March 5, 2009, in the course of conducting an investigation regarding contractor
activities, certain procurement files were removed forcibly from the possession of the
Inspector General by a Commission employee. The Chairman of the Commission was
immediately notified of the situation, and the IG asked that the files be returned, intact and
unaltered. The Office of the Chairman did not comply with this request. OIG subsequently
obtained legal advice from the Office of the Chief Counsel, Treasury Inspector General for
Tax Administration. On April 27, 2009, the OIG and Office of the Chairman agreed the
original files would be secured by OIG while under examination and review. The OIG and
the Office of the Chairman continue to work to resolve this issue and OIG has proposed a
written policy to clarify OIG authorities.




                                              12
                                           ig
                              April 2009 Semiannual Report




                              OTHER ACTIVITIES

Legislative Review

Inspector General Act Amendments

During this reporting period, the OIG monitored and reviewed H.R. 928, S. 1723, and S.
2324, which were ultimately passed as Public Law 110-409, the Inspector General Reform
Act of 2008.


Memorandum of Understanding with Treasury Inspector General
for Tax Administration

Per the IG Act Amendments of 2008, each federal Inspector General is required to retain
independent counsel or retain counsel from another Inspector General through a reimbursable
agreement. OIG did not have in-house counsel after October 2008, and has since reached
agreement with the Office of the Chief Counsel of the Treasury Inspector General for Tax
Administration. The Office of the Chief Counsel will provide legal services, advice and
legislative review to OIG on a reimbursable basis. OIG anticipate this to be a cost saving
measure compared to past practice of hiring a part-time (32 hour per week) GS-15 attorney.
Cost savings can be applied to audit and investigative work.

Contractor Fraud Reporting Form
Changes to the Federal Acquisition Regulations on November 12, 2008 required all federal
contractors to disclose to Inspectors General credible evidence of a violation of Federal
criminal law involving fraud, conflict of interest, bribery, or a gratuity violation, or a
violation of the civil False Claims Act, where such evidence arises in connection with a
federal contract. The Rule requires such disclosure even as to conduct that occurred before
December 12, 2008.




                                             13
                                           ig
                              April 2009 Semiannual Report




In response to this new mandate, OIG worked with the Office of the Chief Information
Officer to develop and activate an electronic reporting form on the OIG website. OIG used
the General Services Agency template as a basis for the form. The form was activated in
March 2009. However through malicious cyber attack a few weeks later, the reporting form
and the USITC website was disabled. At the date of the report, OIG does not yet have a
working contractor fraud reporting from on its website. The CIO organization is working to
resolve the issue.

OIG Database
OIG has worked since June 2008, to modify and activate an existing but nonfunctional
database. The OIG database maintains an electronic archive of all OIG reports back to 1992,
status of recommendations, FOIA requests, investigations and inspections data. Once active,
the database will streamline request for OIG work products and FOIA requests.

Searchable website
Per the IG Act Amendments of 2008, OIG is continuing to work with the CIO organization
to develop the OIG website into a fully searchable site for those users seeking certain
information on audits, inspection, and semi-annual reports. The fully searchable function is
expected to be operational by July 2009.

Redesigned OIG Webpage
Per the IG Act Amendments of 2008, the OIG website has been redesigned, with the
assistance of the CIO organization, and should be on-line in June 2009. The main USITC
webpage (www.usitc.gov) now has more prominent link to the OIG page.

Project on Government Oversight Report
OIG participated in the questionnaire distributed by POGO for the report “Inspectors
General: Accountability is a Balancing Act.” OIG also reviewed the report and will consider
incorporating some of the recommendations into its practices.

Freedom of Information Act Requests

OIG responded to one FOIA request during this period related to an investigation.


                                             14
                                           ig
                              April 2009 Semiannual Report




Directives Review

During this period, no Commission directives required OIG review.


Government Accountability Office

During this period, the GAO issued no reports related to Commission activities.


Liaison Activities

Council of Inspectors General on Integrity and Efficiency

The Inspector General is an active and participating member of the Council of the Inspectors
General on Integrity and Efficiency (CIGIE).

On October 14, 2008 the IG reform Act of 2008 established the Council of the Inspectors
General on Integrity and Efficiency (CIGIE) as the unified council of all statutory IGs to
provide government-wide coordination of and focus on the activities of the OIG community.
OMB’s Deputy Director for Management services is the Executive Chairperson, and IGs
elected by the CIGIE members, serve as the Chairperson and Vice Chairperson and
collectively manage the Council’s day-to-day activities. An Executive Council, comprised of
selected IGs, provides corporate leadership and long-term planning. Standing committees
exist to examine important issues and promote integrity, accountability, and excellence in
government.

The mission of the Council is to address integrity, economy, and effectiveness issues that
transcend individual Government agencies; and increase the professionalism and
effectiveness of personnel by developing policies, standards, and approaches to aid in the
establishment of a well trained and highly skilled workforce in the OIGs.




              REPORTING REQUIREMENTS INDEX


                                             15
                                           ig
                             April 2009 Semiannual Report




Reporting requirements required by the Inspector General Act of 1978, as amended (1988)
are listed below:

.
IG ACT             DESCRIPTION                                                  PAGE
Section 4(a)(2)    Review of Legislation
                                                                                  13
Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies
                                                                                None
Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                   Abuses, and Deficiencies
                                                                                None
Section 5(a)(3)    Recommendation Included Previous Semiannual Reports on
                   Which Corrective Action has not Been Completed
                                                                                  11
Section 5(a)(4)    Matters Referred to Prosecuting Authorities
                                                                                None
Section 5(a)(5)    Summary of Instances Where Information or Assistance was
                   Unreasonably Refused
                                                                                  13
Section 5(a)(7)    Summary of Significant Reports
                                                                                   9
Section 5(a)(8)    Questioned and Unsupported Costs                               18
Section 5(a)(9)    Recommendations that Funds Be Put to Better Use                19
Section 5(a)(10)   Summary of Audit Reports Issued Before the Start of the
                   Reporting Period for Which no Management Decision Has
                   Been Made                                                     None
Section 5(a)(11)   Significant revised management decisions                      None
Section 5(a)(12)   Management Decision with Which the Inspector General is in
                   Disagreement                                                  None




                                            16
                                             ig
                              April 2009 Semiannual Report




     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS
                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs

A.    For which no management decision has been made
      by the commencement of the period                     0       0           0

B.    Which were issued during the reporting period         0       0           0

      Subtotals (A + B)                                     0       0           0

C.    For which a management decision was made during
      the reporting period                                  0       0           0

      (i) Dollar value of disallowed costs                  0       0           0

      (ii) Dollar value of costs not disallowed             0       0           0

D.    For which no management decision has been made
      by the end of the reporting period                    0       0           0

E.    Reports for which no management decision was
      made within six months of issuance                    0       0           0




                                             17
                                         ig
                            April 2009 Semiannual Report




     Table 2: AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE
                                                        Number of   Dollar
                                                         Reports    Value

A.    For which no management decision has been made
      by the commencement of the period                     0        0

B.    Which were issued during the reporting period         0         0

      Subtotals (A + B)                                     0         0

C.    For which a management decision was made during
      the reporting period                                  0         0

      (i) Dollar value of recommendations that were
          agreed to by management                           0         0



      (ii) Dollar value of recommendations that were
       not agreed to by management                          0         0

D.    For which no management decision has been made
      by the end of the reporting period                    0         0

E.    Reports for which no management decision was
      made within six months of issuance                    0         0




                                           18
                                            ig
                              April 2009 Semiannual Report




                                      GLOSSARY
The following definitions apply to the terms used in this report.

Questioned cost             means a cost that is questioned because of: (1) an alleged
                            violation of a provision of a law, regulation, contract, grant,
                            cooperative agreement, or other agreement or document
                            governing the expenditure of funds; (2) a finding that, at the time
                            of the audit, such cost is not supported by adequate
                            documentation; or (3) a finding that the expenditure of funds for
                            the intended purpose is unnecessary or unreasonable.

Unsupported cost            means a cost that is questioned because at the time of the audit,
                            such cost is not supported by adequate documentation.

Disallowed cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendations that        means a recommendation that funds could be used more
funds be put to better      efficiently if management of an establishment took actions to
use                         implement and complete the recommendation, including: (1)
                            reduction in outlays; (2) deobligation of funds from programs or
                            operations; (3) withdrawal of interest subsidy costs on loans or
                            loan guarantees, insurance, or bonds; (4) costs not incurred by
                            implementing recommended improvements related to the
                            operations of the establishment, a contractor or grantee; (5)
                            avoidance of unnecessary expenditures noted in preaward reviews
                            of contract or grant agreements; or (6) any other savings which
                            are specifically identified.




                                              19
                          OIG Points of Contact

Phone          202-205-2210                       Hotline:
Fax            202-205-1859                       1-800-500-0333
OIG internet   www.usitc.gov/oig                  OIGHotline@usitc.gov
